Washington, D.C. 20530

June 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Dawn Herndon v. Judy R. Upton, Warden,
S.Ct. No. 20-1556
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 5, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on June 23, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 23, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1556
HERNDON, DAWN
JUDY R. UPTON, WARDEN

KENNETH A. CARUSO
MUKASEY FRENCHMAN LLP
TWO GRAND CENTRAL TOWER
140 EAST 45TH STREET
NEW YORK, NY 10017
212-466-6400
KEN.CARUSO@MFSLLP.COM
VIRGINIA CHAVEZ ROMANO
WHITE & CASE LLP
1221 AVENUE OF THE AMERICAS
NEW YORK, NY 10020
212-819-8200

